      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                         Washington, D.C. 20201




November 28, 2011

TO:           Donald M. Berwick, M.D.
              Administrator
              Centers for Medicare & Medicaid Services


FROM:         /Gloria L. Jarmon/
              Deputy Inspector General for Audit Services


SUBJECT:      Review of Medicaid Payments for Nonemergency Medical Transportation
              Services Claims Submitted by Providers in New York City (A-02-08-01017)


Attached, for your information, is an advance copy of our final report on Medicaid payments for
nonemergency medical transportation services claims submitted by providers in New York City.
We will issue this report to the New York State Department of Health within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or
James P. Edert, Regional Inspector General for Audit Services, Region II, at (212) 264-4620 or
through email at James.Edert@oig.hhs.gov. Please refer to report number A-02-08-01017.


Attachment
                                                                          Office of Inspector General
      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Audit Services


                                                                          Region II
                                                                          Jacob Javits Federal Building
                                                                          26 Federal Plaza, Room 3900
                                                                          New York, NY 10278
November 30, 2011

Report Number: A-02-08-01017

Nirav R. Shah, M.D., M.P.H
Commissioner
New York State Department of Health
14th Floor, Corning Tower
Empire State Plaza
Albany, NY 12237

Dear Dr. Shah:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Payments for Nonemergency Medical
Transportation Services Claims Submitted by Providers in New York City. We will forward a
copy of this report to the HHS action official noted on the following page for review and any
action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Jennifer Webb, Audit Manager, at (212) 264-8875 or through email at
Jennifer.Webb@oig.hhs.gov. Please refer to report number A-02-08-01017 in all
correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Nirav R. Shah, M.D., M.P.H.


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL



          REVIEW OF
    MEDICAID PAYMENTS FOR
    NONEMERGENCY MEDICAL
TRANSPORTATION SERVICES CLAIMS
   SUBMITTED BY PROVIDERS IN
       NEW YORK CITY




                       Daniel R. Levinson
                        Inspector General

                        November 2011
                        A-02-08-01017
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                          Notice

    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

In New York State, the Department of Health (DOH) administers the Medicaid program and
oversees compliance with Federal and State requirements. Within DOH, the Office of Medicaid
Management administers the Medicaid program, including the nonemergency medical
transportation (NEMT) program. Each of the State’s local social services offices is responsible
for authorizing NEMT services, ensuring that the services are necessary to the obtaining of
medical care, and monitoring the NEMT program.

Pursuant to 42 CFR § 431.53, States are required to ensure necessary transportation for Medicaid
beneficiaries to and from providers. Pursuant to State regulations, (1) NEMT services may be
delivered through the use of an ambulance, ambulette, taxicab, or livery service; (2) prior
authorization must be obtained; (3) a medical practitioner’s order justifying the beneficiary’s use
of NEMT services must be documented in the beneficiary’s medical record; and (4) a
transportation provider must notify the New York Department of Motor Vehicles within 10 days
of the date on which an ambulette driver commences employment.

OBJECTIVE

Our objective was to determine whether DOH claimed Federal Medicaid reimbursement for
NEMT services claims submitted by transportation providers in New York City in accordance
with certain Federal and State requirements.

SUMMARY OF FINDINGS

For our audit period (April 1, 2005, through March 31, 2006), DOH claimed Federal Medicaid
reimbursement for some NEMT services submitted by transportation providers in New York
City that did not comply with certain Federal and State requirements. Of the 100 NEMT claims
in our random sample, DOH properly claimed Medicaid reimbursement for 54 claims. However,
for the 46 remaining claims, DOH claimed Medicaid reimbursement for services that were not
allowable or were potentially unallowable. Specifically, 36 claims contained services that did
not comply with certain Federal and State requirements, and for 10 claims, we could not
determine whether services complied with Federal and State regulations.




                                                 i
Of the 36 noncompliant claims, 6 contained more than 1 deficiency:

   •   For 18 claims, the transportation provider could not adequately document NEMT services
       to support the claim.

   •   For six claims, the request for prior authorization was not supported in DOH’s files, the
       beneficiary’s medical record, or the transportation provider’s files by an order from a
       medical practitioner.

   •   For six claims, the medical practitioner could not provide documentation to support that
       the beneficiary received a Medicaid-eligible medical service on the date of transport.

   •   For six claims, the beneficiary’s medical record did not indicate the condition justifying
       the practitioner’s order for ambulette services.

   •   For six claims, the transportation provider did not report the ambulette driver who
       provided the NEMT service to the Department of Motor Vehicles within 10 days of
       commencement of employment.

Of the 10 claims for which we could not determine compliance with Federal and State Medicaid
reimbursement requirements:

   •   For five claims, we could not verify the inspection status of the vehicle used to provide
       the transportation service.

   •   For five claims, we were unable to locate the transportation provider or medical
       practitioner.

The claims for unallowable and potentially unallowable services were made because (1) DOH’s
policies and procedures for overseeing the Medicaid program did not adequately ensure that
providers complied with Federal and State requirements for ordering, documenting, and claiming
NEMT services and (2) the New York City social services district’s quality assurance
mechanism did not adequately ensure that NEMT services were properly provided.

Based on our sample results, we estimate that DOH improperly claimed $16,951,335 in Federal
Medicaid reimbursement for 979,886 NEMT claims during the period April 1, 2005, through
March 31, 2006. In addition, we estimate that DOH claimed $2,926,253 in Federal Medicaid
reimbursement for 193,375 NEMT claims that may not have complied with Federal and State
Medicaid requirements.




                                                ii
RECOMMENDATIONS

We recommend that DOH:

   •   refund $16,951,335 to the Federal Government;

   •   work with CMS to resolve the claims, totaling an estimated $2,926,253, for which
       Medicaid reimbursement may have been unallowable;

   •   strengthen its policies and procedures to ensure that providers comply with Federal and
       State requirements for ordering, documenting, and claiming NEMT services; and

   •   require the New York City social services district to strengthen its quality assurance
       mechanism to ensure that NEMT services are properly provided.

DEPARTMENT OF HEALTH COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In its comments on our draft report, DOH partially agreed with our first recommendation
(financial disallowance) and agreed with our remaining recommendations. Specifically, DOH
disagreed with our interpretation of certain State requirements related to prior authorization of
NEMT services and with our findings related to four sampled claims. In addition, DOH stated
that it had updated its guidance for NEMT service providers and planned to implement a quality
assurance program for NEMT services provided in the New York City area. DOH also requested
that we provide information needed to resolve with CMS the claims related to our second
recommendation. DOH’s comments appear in their entirety as Appendixes D and E.

After reviewing DOH’s comments, we maintain that our findings and recommendations are
valid. In addition, we provided the information that DOH requested.




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                            Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Medicaid Program ........................................................................................1
              New York State’s Nonemergency Medical Transportation Program ..........1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
               Objective ......................................................................................................2
               Scope ............................................................................................................3
               Methodology ................................................................................................3

FINDINGS AND RECOMMENDATIONS ....................................................................4

          UNALLOWABLE CLAIMS ...................................................................................6
              Transportation Claim Not Adequately Documented ...................................6
              No Medical Practitioner’s Order for Transportation Services .....................6
              No Medicaid-Eligible Medical Services ......................................................6
              Condition Justifying Order for Ambulette Services Not Noted
                in Medical Record .....................................................................................7
              Driver Not Reported Timely to the Department of Motor Vehicles……… 7

          POTENTIALLY UNALLOWABLE CLAIMS ......................................................7
               Vehicle Inspection Status Could Not Be Verified .......................................7
               Providers Could Not Be Located .................................................................8

          CAUSES OF UNALLOWABLE AND
           POTENTIALLY UNALLOWABLE CLAIMS ..................................................8

          RECOMMENDATIONS .........................................................................................8

          DEPARTMENT OF HEALTH COMMENTS AND
          OFFICE OF INSPECTOR GENERAL RESPONSE ..............................................9
               Prior Authorization of Nonemergency Transportation Services .................9
               Findings Related to Specific Sampled Claims ...........................................10




                                                                    iv
APPENDIXES

    A: SAMPLE DESIGN AND METHODOLOGY

    B: SAMPLE RESULTS AND ESTIMATES

    C: SUMMARY OF DEFICIENCIES FOR EACH SAMPLED CLAIM

    D: DEPARTMENT OF HEALTH COMMENTS (AUGUST 11, 2011)

    E: DEPARTMENT OF HEALTH COMMENTS (SEPTEMBER 23, 2011)




                                v
                                                 INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements. In New York State, the Department of
Health (DOH) administers the Medicaid program and oversees compliance with Federal and
State requirements. Within DOH, the Office of Medicaid Management administers the Medicaid
program, including the nonemergency medical transportation (NEMT) program.

Federal regulations (42 CFR § 431.53) require States to ensure necessary transportation for
Medicaid beneficiaries to and from providers. 1 Pursuant to 42 CFR § 440.170, transportation
includes expenses for transportation and other related travel expenses (e.g., NEMT) determined
to be necessary by the State Medicaid agency to secure medical examinations and treatment for a
beneficiary. In addition, pursuant to section 1902(a)(27) of the Act, a State plan must require
that providers of services maintain records to fully disclose the extent of services provided to
Medicaid beneficiaries.

New York State’s Nonemergency Medical Transportation Program

New York State’s Medicaid State plan and Title 18 § 505.10 of the New York Compilation of
Codes, Rules, & Regulations (NYCRR) describe DOH’s policies concerning NEMT services for
Medicaid beneficiaries. In addition, DOH issues guidance to its local social services district
offices, 2 transportation providers, and medical practitioners regarding its policies and procedures
for ordering, documenting, and claiming NEMT services. DOH uses the Medicaid Management
Information System (MMIS), a computerized payment and information reporting system, to
process and pay Medicaid claims, including NEMT claims.

Pursuant to State regulations (18 NYCRR § 505.10(a)), payment for NEMT services requires
prior authorization. DOH grants prior authorization when it determines that a specific mode of
transportation is necessary for a beneficiary to obtain medical services (18 NYCRR




1
    States are required to describe their methods for meeting this requirement in their Medicaid State plans.
2
 In New York State, each county is considered its own social services district, except the five counties that make up
New York City, which are considered a single district. In New York City, the New York City Human Resources
Administration/Department of Social Services administers the local district’s NEMT services program.



                                                             1
§ 505.10(b)(17)). 3 In addition, the regulations require that the ordering practitioner note in the
beneficiary’s medical record the condition that justifies the practitioner’s ordering ambulette 4 or
nonemergency ambulance services (18 NYCRR § 505.10 (c)(4)).

Pursuant to State regulations (18 NYCRR §§ 505.10(e)(6) and 505.10(b)(21)), transportation
providers must be lawfully authorized to provide transportation services and may use an
ambulance, ambulette, taxicab, van, or livery service to provide NEMT services related to
Medicaid-eligible medical services. Each mode of transportation (i.e., level of service) is
reimbursed at a different rate. In addition, pursuant to section 509-d(4) of Article 19-A of the
New York Vehicle and Traffic Law, a transportation provider must notify the New York
Department of Motor Vehicles within 10 days of the date on which an ambulette driver
commences employment with the transportation provider.

State regulations (18 NYCRR § 504.3) require all providers to prepare and maintain records of
services provided, including all records necessary to disclose the nature and extent of services
provided and all information regarding claims submitted for payment. In addition, the
regulations require providers to submit claims only for services that were actually furnished and
medically necessary or otherwise authorized under the State’s Social Services Law.

Pursuant to section 365-h of the New York Social Services Law, each of the State’s local social
services offices is responsible for authorizing NEMT services and ensuring that the services are
necessary to the obtaining of medical care. In addition, local social services offices are required
to maintain a “quality assurance mechanism” to ensure that NEMT services are provided in
accordance with State regulations.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether DOH claimed Federal Medicaid reimbursement for
NEMT services claims submitted by transportation providers in New York City in accordance
with certain Federal and State requirements.




3
  For ambulance services, a request for prior authorization must be supported by the order of a practitioner who is
the beneficiary’s attending physician, physician’s assistant, or nurse practitioner. For ambulette services, a request
for prior authorization must be supported by the order of a practitioner who is the beneficiary’s attending physician,
physician’s assistant, nurse practitioner, dentist, optometrist, podiatrist, or other medical practitioner.
4
 An ambulette is a special-purpose vehicle designed and equipped to carry individuals in wheelchairs or stretchers,
or that has the ability to carry disabled individuals. Ambulette service involves providing the beneficiary with
personal assistance. Pursuant to 18 NYCRR § 505.10(c)(2), ambulette transportation may be ordered if the
beneficiary is wheelchair bound; needs to be transported in a recumbent position; has a disabling condition that
prevents the beneficiary from using a taxi, livery service, bus, or private vehicle; or will be receiving radiation,
dialysis, or chemotherapy resulting in a disabling physical condition after treatment.



                                                          2
Scope

Our review covered 3,499,122 claims for NEMT services, totaling $151,003,695 ($75,507,782
Federal share), submitted by 196 transportation providers in New York City for the period
April 1, 2005, through March 31, 2006.

We plan to issue a separate report (A-02-09-01024) on DOH’s claims for Medicaid
reimbursement for NEMT services claims submitted by providers outside New York City.

We did not assess the overall internal control structure of DOH or the Medicaid program.
Rather, we limited our review of internal controls to those applicable to the objective of our
audit. In addition, the scope of our audit did not require us to review the medical necessity of the
transportation services.

We conducted fieldwork at DOH’s offices in Albany, New York, the State MMIS fiscal agent in
Rensselaer, New York, 52 transportation providers in New York City, 90 medical practitioners
throughout the New York metropolitan area, and the New York City social services district
office in New York, New York.

Methodology

To accomplish our objective, we:

    •    reviewed applicable Federal and State laws and regulations;

    •    held discussions with CMS and DOH officials to gain an understanding of the NEMT
         program;

    •    held discussions with New York City social services officials to gain an understanding of
         the district’s policies and procedures related to its administration of the NEMT program;

    •    ran computer programming applications at the MMIS fiscal agent that identified a
         sampling frame of 3,499,122 NEMT services claims, 5 totaling $151,003,695
         ($75,507,782 Federal share), made by 196 transportation providers; 6

    •    selected a simple random sample of 100 claims from the sampling frame of 3,499,122
         claims 7 and, for these 100 claims:

5
 Providers can submit an NEMT claim for a one-way trip to/from a Medicaid-covered medical service, a round trip,
or a multileg trip.
6
 We used providers’ correspondence addresses and county codes on the MMIS to identify those located in New
York City. The sampling frame did not include NEMT claims submitted by three transportation providers that were
under criminal investigation.
7
 Our random sample comprised 95 round trips and 5 one-way trips. Of these, NEMT services were claimed for
ambulette (79 claims), van or similar method for day treatment center visits (8 claims), livery (7 claims), taxicab
(4 claims), or nonemergency ambulance (2 claims).


                                                           3
         o interviewed the ordering practitioner and office staff, if available, 8 and reviewed the
           practitioner’s documentation to determine whether the beneficiary’s medical record
           noted the condition that justified the practitioner’s ordering NEMT services;

         o interviewed the transportation provider, if available, 9 and reviewed the transportation
           provider’s documentation supporting the claim for NEMT services;

         o reviewed documentation maintained by the medical practitioner to whom the
           beneficiary was transported to determine whether the beneficiary received Medicaid-
           eligible medical services on the date of transport;

         o reviewed documentation maintained by DOH supporting the ordering practitioner’s
           request for prior authorization for NEMT services;

         o reviewed New York Department of Transportation records to determine whether the
           vehicle(s) used for the service(s) was inspected; and

         o reviewed New York Department of Motor Vehicles records to determine whether the
           ambulette driver(s) was properly licensed and reported within 10 days of
           commencing employment with a transportation provider; and

    •    estimated the unallowable and potentially unallowable Federal Medicaid reimbursement
         in the population of 3,499,122 NEMT claims.

Appendix A contains the details of our sample design and methodology. Appendix B contains
our sample results and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                FINDINGS AND RECOMMENDATIONS

DOH claimed Federal Medicaid reimbursement for some NEMT services submitted
by transportation providers in New York City that did not comply with certain Federal and State
requirements. Of the 100 NEMT claims in our random sample, DOH properly claimed Medicaid
reimbursement for 54 claims. However, for the 46 remaining claims, DOH claimed Medicaid
reimbursement for services that were not allowable or were potentially unallowable.

8
  For various reasons (e.g., relocation, out of business), we were able to interview only 90 of the 93 practitioners
related to our sampled claims.
9
 For various reasons (e.g., relocation, out of business), we were able to interview only 52 of the 62 transportation
providers related to our sample. For five providers whom we could not locate, we were able to obtain
documentation supporting the claim from other sources (e.g., subsequent business owners).


                                                           4
Specifically, 36 claims contained services that did not comply with certain Federal and State
requirements, and for 10 claims, we could not determine whether services complied with Federal
and State regulations.

Of the 36 noncompliant claims, 6 contained more than 1 deficiency:

   •   For 18 claims, the transportation provider could not adequately document NEMT services
       to support the claim.

   •   For six claims, the request for prior authorization was not supported in DOH’s files, the
       beneficiary’s medical record, or the transportation provider’s files by an order from a
       medical practitioner.

   •   For six claims, the medical practitioner could not provide documentation to support that
       the beneficiary received Medicaid-eligible medical services on the date of transport.

   •   For six claims, the beneficiary’s medical record did not indicate the condition justifying
       the practitioner’s order for ambulette services.

   •   For six claims, the transportation provider did not report the ambulette driver who
       provided the NEMT service to the Department of Motor Vehicles within 10 days of
       commencement of employment.

Of the 10 claims for which we could not determine compliance with Federal Medicaid
reimbursement requirements:

   •   For five claims, we could not verify the inspection status of the vehicle used to provide
       the transportation service.

   •   For five claims, we were unable to locate the transportation provider or medical
       practitioner.

Appendix C contains a summary of deficiencies, if any, identified for each sampled claim.

The claims for unallowable and potentially unallowable services were made because (1) DOH’s
policies and procedures for overseeing the Medicaid program did not adequately ensure that
providers complied with Federal and State requirements for ordering, documenting, and claiming
NEMT services and (2) the New York City social services district’s quality assurance
mechanism did not adequately ensure that NEMT services were properly provided.

Based on our sample results, we estimate that DOH improperly claimed $16,951,335 in Federal
Medicaid reimbursement for 979,886 NEMT claims during the period April 1, 2005, through
March 31, 2006. In addition, we estimate that DOH claimed $2,926,253 in Federal Medicaid
reimbursement for 193,375 NEMT claims that may not have complied with Federal and State
Medicaid requirements.



                                                5
UNALLOWABLE CLAIMS

Transportation Claim Not Adequately Documented

Section 1902(a)(27) of the Act requires that a State plan “provide for agreements with every
person or institution providing services under which such person or institution agrees (A) to keep
such records as are necessary to fully disclose the extent of the services provided to individuals
receiving assistance under the state plan, and (B) to furnish the State agency or the Secretary
with such information … as the State agency or the Secretary may from time to time request.”

Pursuant to 18 NYCRR § 505.10(e)(8), if an ambulette is used to provide an NEMT service, the
transportation provider must maintain documentation for the service. Specifically, providers
must document (1) the beneficiary’s name and Medicaid identification number, (2) the
origination of the trip, (3) the destination of the trip, (4) the date and time of service, and (5) the
name of the driver transporting the beneficiary. 10

For 18 of the 100 claims in our sample, transportation providers could not adequately document
NEMT services for which an ambulette was used to transport the beneficiary. Specifically, for
14 sample claims, the transportation provider could not provide documentation related to the
NEMT service, and for 4 other claims, the transportation provider could not document the name
of the driver who transported the beneficiary.

No Medical Practitioner’s Order for Transportation Services

Pursuant to 18 NYCRR § 505.10(d)(4), requests for prior authorization for NEMT services for
which an ambulette will be used to transport the beneficiary must be supported by an order from
the beneficiary’s attending physician, physician’s assistant, nurse practitioner, dentist,
optometrist, podiatrist, or other approved medical practitioner.

For 6 of the 100 claims in our sample, the request for prior authorization was not supported by an
order from an approved medical practitioner. Specifically, for these six claims, the local social
services district, the transportation provider, or the ordering physician could not provide a
medical practitioner’s order for the related NEMT service.

No Medicaid-Eligible Medical Services

Pursuant to 18 NYCRR § 505.10(a), an NEMT service is eligible for Medicaid payment when
the transportation service is essential for the beneficiary to obtain necessary medical care and
services that may be paid for under the Medicaid program.

For 6 of the 100 claims in our sample, the medical practitioner to whom the beneficiary was
transported could not document that the beneficiary received Medicaid-eligible services on the
date of the NEMT service.


10
  DOH reiterated these requirements to Medicaid providers in its June 2003 (Volume 18, Number 6) issue of New
York State Medicaid Update, the State Medicaid program’s official newsletter.


                                                       6
Condition Justifying Order for Ambulette Services Not Noted in Medical Record

Pursuant to 18 NYCRR § 505.10(c)(2), ambulette transportation may be ordered if the recipient
needs to be transported in a recumbent position; is wheelchair bound; has a disabling condition
that requires the use of a walker or crutches; has any other disabling condition that requires the
personal assistance provided by an ambulette service; or requires radiation therapy or dialysis
treatment and cannot use a taxicab, livery service, or public transportation. In addition, pursuant
to 18 NYCRR § 505.10(c)(4), the ordering practitioner must note in the beneficiary’s medical
record the condition that justifies the practitioner’s ordering ambulette services.

For 6 of the 100 claims in our sample, the ordering practitioner did not note the condition
justifying the order for ambulette services in the beneficiary’s medical record. Further, in
interviews, the ordering practitioner could not indicate the condition justifying the order. 11

Driver Not Reported Timely to the Department of Motor Vehicles

Pursuant to 18 NYCRR § 505.10(e)(6)(ii), ambulette services and their drivers must comply with
all the requirements of the Department of Transportation and the Department of Motor Vehicles.
Section 509-d(4) of Article 19-A of the New York Vehicle and Traffic Law requires
transportation providers to notify the Department of Motor Vehicles within 10 days of the date
on which an ambulette driver commences employment. Pursuant to Department of Motor
Vehicles regulations (15 NYCRR §§ 6.3(c)(10) and 6.3(d)), transportation providers must submit
an Article 19-A Bus Driver Application to the Department of Motor Vehicles for each new
driver. The Department of Motor Vehicles uses the information on the application to conduct a
criminal and driving history review of the driver. 12

For 6 of the 100 claims in our sample, NEMT services were provided by ambulette drivers who
had not been reported within 10 days of commencing employment to the Department of Motor
Vehicles by the transportation provider as of the date of the sampled ambulette service. For
three of these claims, as of May 2, 2011, the transportation provider still had not reported the
driver to the Department of Motor Vehicles.

POTENTIALLY UNALLOWABLE CLAIMS

Vehicle Inspection Status Could Not Be Verified

Pursuant to 18 NYCRR § 505.10(e)(6)(ii), ambulette services and their drivers must comply with
all the requirements of the Department of Transportation and the Department of Motor Vehicles.
Department of Transportation regulations (17 NYCRR § 720.2(A)) state that a motor vehicle
shall not be operated unless it displays an unexpired certificate of inspection issued to the current
owner or operator.

11
  We were able to interview only five of the six ordering practitioners because one of the practitioners was no
longer in business.
12
  If the Department of Motor Vehicles finds a disqualifying conviction and/or potentially disqualifying traffic
violation, it may determine the driver to be unqualified and, therefore, not eligible to drive an ambulette.


                                                          7
For 5 of the 100 claims in our sample, the transportation provider’s records did not document the
vehicle used to provide the NEMT service. 13 Therefore, we could not determine whether the
vehicle had been issued a certificate of inspection, and DOH could not assure that the beneficiary
was transported in a properly inspected vehicle. Consequently, we are setting aside these claims
for resolution by CMS and DOH.

Providers Could Not Be Located

We could not determine whether five claims complied with certain Federal and State
requirements because we could not locate the transportation providers or medical practitioners
associated with these claims. Consequently, we are setting aside these claims for resolution by
CMS and DOH. 14

CAUSES OF UNALLOWABLE AND POTENTIALLY UNALLOWABLE CLAIMS

The claims for unallowable and potentially unallowable services were made because (1) DOH’s
policies and procedures for overseeing the Medicaid program did not adequately ensure that
providers complied with Federal and State requirements for ordering, documenting, and claiming
NEMT services and (2) the New York City social services district’s quality assurance
mechanism did not adequately ensure that NEMT services were properly provided.

RECOMMENDATIONS

We recommend that DOH:

     •   refund $16,951,335 to the Federal Government;

     •   work with CMS to resolve the claims, totaling an estimated $2,926,253, for which
         Medicaid reimbursement may have been unallowable;

     •   strengthen its policies and procedures to ensure that providers comply with Federal and
         State requirements for ordering, documenting, and claiming NEMT services; and

     •   require the New York City social services district to strengthen its quality assurance
         mechanism to ensure that NEMT services are properly provided.




13
  The transportation provider’s records did not document the vehicle used to provide the NEMT service for 13 other
sample claims that we determined to be unallowable.
14
  We could not locate the transportation provider or medical practitioner for four other sample claims that we
determined to be unallowable. CMS requirements are unclear regarding record-retention policies for transportation
providers and medical practitioners who cease operations.


                                                        8
DEPARTMENT OF HEALTH COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In its comments on our draft report, DOH partially agreed with our first recommendation
(financial disallowance) and agreed with our remaining recommendations. 15 Specifically, DOH
disagreed with our interpretation of certain State requirements related to prior authorization of
NEMT services and with our findings related to four sampled claims. In addition, DOH stated
that it had updated its guidance for NEMT service providers and planned to implement a quality
assurance program for NEMT services provided in the New York City area. DOH also requested
that we provide information needed to resolve with CMS the claims related to our second
recommendation. DOH’s comments appear in their entirety as Appendixes D and E.

Prior Authorization of Nonemergency Transportation Services

Department of Health Comments

DOH stated that it appeared we disallowed six claims because we “were unable to locate paper
documentation confirming written practitioners’ orders for the transportation services.” DOH
stated that State regulations on requests for prior authorization (18 NYCRR § 505.10(d)(4)) “do
not specifically require the maintenance of a unique written order to support each request”
[emphasis in original]. DOH stated that it meets this regulatory requirement through safeguards
built into its prior authorization process. Specifically, DOH stated that this process ensures that
only the requests of appropriate medical practitioners are approved because all requests for prior
authorization “must include the medical practitioner’s [identification] number and require the
approval of a prior authorization official….” DOH further stated that its MMIS will not accept a
request for prior authorization without a system-verified medical practitioner’s identification
number.

Office of Inspector General Response

We did not consider only a practitioner’s written order as supporting documentation of a
physician’s order for NEMT services. Rather, we accepted as supporting documentation a
request for prior approval signed by the medical practitioner and/or notes in the beneficiary’s
medical records indicating that a practitioner ordered NEMT services. 16 For all six sampled
claims, DOH could not provide a request for prior approval signed by a physician. Further,
documentation to support a practitioner’s order could not be found in records from the
transportation provider, the medical practitioner whose identification number was entered into
the DOH’s MMIS, or the medical provider to whom the beneficiary was transported.




15
  DOH furnished comments to our draft report on August 11, 2011. In a letter dated September 23, 2011, DOH
provided additional comments on a finding that it did not dispute in its original comments.
16
  We note that for 13 of the 100 sampled claims, DOH could not provide a prior approval form signed by a medical
practitioner. However, for seven of these claims, we obtained a signed prior approval form from the ordering
practitioner.


                                                       9
Moreover, claim information, including the medical practitioner’s identification number, was
submitted to the DOH’s fiscal agent by the transportation provider. 17 The MMIS could not
validate that there was a practitioner’s order. Rather, the MMIS could only validate that the
practitioner’s identification number was valid. Therefore, we did not consider the mere presence
of a medical practitioner’s identification number in the MMIS to be supporting documentation of
a medical practitioner’s order.

After reviewing DOH’s comments, we maintain that our finding regarding prior authorization of
NEMT services is valid.

Findings Related to Specific Sampled Claims

Department of Health Comments

For two sampled claims (claim numbers 29 and 48), DOH stated that the transportation provider
was no longer in business and could not be located; DOH also stated that the claims should be set
aside for resolution between DOH and CMS. For the third sampled claim (claim number 35),
DOH stated that the transportation provider associated with the claim was terminated from
participation in the Medicaid program and that the State was seeking recoveries from the
provider. DOH stated that the claim should therefore not be extrapolated across our population
of claims. For the fourth sampled claim (claim number 63), DOH stated that the driver
associated with the claim was removed from the Department of Motor Vehicles’ roster of
approved drivers on June 27, 2007, more than 1 year after the January 9, 2006, sampled service
date.

Office of Inspector General Response

Regarding the two sampled claims for which the transportation provider was no longer in
business and could not be located, we disagree that these claims should be set aside. We
obtained claim information from other sources. Specifically, for claim number 29, we obtained
documentation from an attorney representing the transportation provider’s family; for claim
number 48, we obtained the associated beneficiary’s medical records from the medical
practitioner to whom the beneficiary was transported. 18 For claim number 35, although the State
is seeking recoveries from the transportation provider, we note that the recoveries relate to
services claimed after our audit period. For claim number 63, our finding related to when the
driver was added to the Department of Motor Vehicles’ roster by the transportation provider, not
when the driver was removed from the roster.



17
   During our audit period, it was the general practice of medical practitioners to fax NEMT requests to
transportation providers. Upon completion of the requested NEMT service, the transportation provider prepared a
request for provider approval for the medical practitioner’s (or an authorized staff member’s) signature. The
transportation provider then submitted the form (which included the medical practitioner’s identification number and
signature) to the DOH’s fiscal agent for payment.
18
  The medical practitioner could not document that the beneficiary received a Medicaid-eligible service on the
sampled service date. Generally, transportation providers would not have access to a beneficiary’s medical records.


                                                        10
After reviewing DOH’s comments, we maintain that our findings regarding the four sampled
claims are valid.

We provided the information that DOH requested to resolve with CMS the claims related to our
second recommendation.




                                             11
APPENDIXES
               APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of all Medicaid paid claims for nonemergency medical transportation
(NEMT) services submitted by transportation providers in New York City for the period April 1,
2005, through March 31, 2006.

SAMPLING FRAME

The sampling frame was an Access file containing 3,499,122 Medicaid NEMT claims totaling
$151,003,695 ($75,507,782 Federal share). The claims data was extracted from the New York
State Medicaid Management Information System.

SAMPLE UNIT

The sample unit was an individual claim for an NEMT service submitted by a New York City
provider and for which the New York State Department of Health claimed Federal Medicaid
reimbursement.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 claims.

SOURCE OF RANDOM NUMBERS

We used the Office of Audit Services’ statistical software, RAT-STATS 2007, to generate the
random numbers for our simple random sample.

METHOD FOR SELECTING SAMPLE ITEMS

We sequentially numbered the 3,499,122 claims in the sampling frame. After generating 100
random numbers, we selected the corresponding frame items. We created a list of 100 sample
items.

ESTIMATION METHODOLOGY

We used RAT-STATS to calculate our estimates. We used the lower limit of the 90-percent
confidence interval to estimate the overpayment associated with the unallowable and potentially
unallowable Medicaid claims for NEMT services.
             APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                              Sample Details and Results


                                                              Number of    Value of
             Value of
 NEMT                                        Value of           Claims    Unallowable
              Frame            Sample
 Claims                                       Sample             With      Services
             (Federal           Size
in Frame                                  (Federal Share)     Unallowable  (Federal
              Share)
                                                               Services     Share)

3,499,122   $75,507,782         100           $2,281               36          $655


                       Estimates of Unallowable Services
            (Limits Calculated for the 90-Percent Confidence Interval)

                                  Federal Share            Total Claims
             Point estimate        $22,904,203              1,259,684
              Lower limit           16,951,335                979,886
              Upper limit           28,857,071              1,561,803


                              Sample Details and Results


                                                              Number of      Value of
             Value of                                           Claims      Potentially
 NEMT                                       Value of
              Frame            Sample                            With      Unallowable
 Claims                                  Sampled Claims
             (Federal           Size                           Potentially   Services
in Frame                                 (Federal Share)
              Share)                                          Unallowable    (Federal
                                                                Services      Share)

3,499,122   $75,507,782         100           $2,281               10          $185


              Estimated Value of Potentially Unallowable Services
            (Limits Calculated for the 90-Percent Confidence Interval)

                                  Federal Share            Total Claims
             Point estimate        $6,483,873                349,912
              Lower limit           2,926,253                193,375
              Upper limit          10,041,493                572,864
                                                                                           Page 1 of 3


APPENDIX C: SUMMARY OF DEFICIENCIES FOR EACH SAMPLED CLAIM

                                             Deficiencies

1   Service not adequately documented
2   No practitioner order for transportation service
3   No Medicaid-eligible medical service
4   Condition justifying order not noted in medical record
5   Driver not reported timely to the Department of Motor Vehicles

           Office of Inspector General Review Determinations for Sampled Claims


       Sample      Deficiency   Deficiency    Deficiency    Deficiency   Deficiency     No. of
        Claim          1            2             3             4            5        Deficiencies
          1                                                                                0
          2                                                                                0
          3                                                                                0
          4            X                                                                   1
          5                                                                                0
          6                                                                                0
          7            X                          X                                        2
          8            X                                                                   1
          9                         X                                                      1
         10                                                                                0
         11                                                                                0
         12                                                                                0
         13                                                                                0
         14            X                                                                   1
         15            X                                                                   1
         16            X                                                                   1
         17                                                                                0
         18                                                                                0
         19                                                                  X             1
         20                                                                  X             1
         21            X                                                                   1
         22                                                                  X             1
         23                                                                                0
         24                         X                                                      1
         25                                                                                0
         26            X                                                                   1
         27                                                                                0
         28                                                     X            X             2
         29            X                                        X                          2
         30                                                                                0
                                                                               Page 2 of 3


Sample   Deficiency   Deficiency   Deficiency   Deficiency   Deficiency     No. of
 Claim       1            2            3            4            5        Deficiencies
 31                                                                            0
 32                                                                            0
 33                                                                            0
 34                                                                            0
 35                                                 X                          1
 36                                    X            X                          2
 37                                                                            0
 38                       X                                                    1
 39                                                                            0
 40                                                                            0
 41                                                              X             1
 42                                                                            0
 43          X                                      X                          2
 44                                                                            0
 45                                                                            0
 46                                                                            0
 47          X                                                                 1
 48                                    X                                       1
 49          X                                                                 1
 50                                                                            0
 51                                                                            0
 52                                    X                                       1
 53                                                                            0
 54                                                                            0
 55                       X                                                    1
 56                                                                            0
 57                                                                            0
 58          X                                                                 1
 59                                                                            0
 60                                                                            0
 61                                                                            0
 62                                                                            0
 63                                                              X             1
 64                                                                            0
 65                                                                            0
 66          X                                                                 1
 67                                                                            0
                                                                                                 Page 3 of 3


           Sample        Deficiency    Deficiency    Deficiency   Deficiency   Deficiency     No. of
            Claim            1             2             3            4            5        Deficiencies
            68                                                                                   0
            69                                                                                   0
            70                                                                                   0
            71         X                                                                         1
            72                                                                                   0
            73                                                                                   0
            74                                                                                   0
            75         X                                                                         1
            76                                                                                   0
            77                                                                                   0
            78                    X                                                              1
            79                                                                                   0
            80                                                                                   0
            81                                                                                   0
            82         X                                                                         1
            83                                                                                   0
            84                                                                                   0
            85                                                                                   0
            86                                                                                   0
            87                    X                                                              1
            88         X                                                                         1
            89                                                                                   0
            90                                                                                   0
            91                                                                                   0
            92                                                                                   0
            93                                                                                   0
            94                                           X            X                          2
            95                                                                                   0
            96                                           X                                       1
            97                                                                                   0
            98                                                                                   0
            99                                                                                   0
           100                                                                                   0
         Category
                      18          6                      6            6            6            42 1
          Totals
          36 Claims With Deficiencies




1
    Six claims contained more than one deficiency.
                                                 Page 1 of 4


APPENDIX D: DEPARTMENT OF HEALTH COMMENTS (AUGUST 11, 2011)
Page 2 of 4
Page 3 of 4
Page 4 of 4
                                                  Page 1 of 2


APPENDIX E: DEPARTMENT OF HEALTH COMMENTS (SEPTEMBER 23, 2011)
Page 2 of 2
